                 U.S. ELECTION ASSISTANCE
                        COMMISSION
                 OFFICE OF INSPECTOR GENERAL




                           FINAL REPORT:


                  Election Data Collection Grant Program
                     Award Number: 08-EDC-800176
                              State of Illinois




                   MAY 27, 2008 THROUGH JUNE 30, 2010




Report No.
E-GR-IL-01-12
September 2013
                               U.S. ELECTION ASSISTANCE COMMISSION
                                     OFFICE OF INSPECTOR GENERAL
                                    1201 New York Ave. NW - Suite 300
                                          Washington, DC 20005


Memorandum

                                                    September 12, 2013


To:        Alice Miller
           Acting Executive Director

From:      Curtis W. Crider
           Inspector General

Subject:   Final Performance Audit Report – 2008 Election Data Collection Grant
           Program Award Number: 08-EDC-800176, State of Illinois
           (Assignment Number E-GR-IL-01-12)

        We contracted with the independent certified public accounting firm of McBride, Lock
& Associates to conduct the subject audit. The objectives of the audit were to identify costs
claimed in the Grant’s Financial Status Reports that were not allocable, allowable, reasonable,
and in conformity with United States Election Assistance Commission’s award terms and
conditions and applicable Federal grant requirements.

        In its audit, McBride, Lock & Associates concluded that the Illinois Board of Elections
(Board) generally accounted for and expended the Election Data Collection grant funds in
accordance with applicable requirements for the period from May 27, 2008 through June 30,
2010. However the following exceptions were identified;

            • The Board lacks complete, documented policies with respect to award
               administration, accounting and financial reporting.

            • The Board’s internal control processes were not adequate to prevent or detect the
               payment of invoices lacking adequate approvals and detail of hours and hourly
               rates as outlined in the agreed-upon contract provisions.

       In its August 28, 2013 response to the draft report (Attachment A-1), the Board provided
comments to the findings and corrective actions, as applicable, to address the recommendations.
The Board did not agree with the questioned costs of $119,595 related to the finding concerning
contract monitoring.

       In the report McBride, Lock & Associates summarized the Board’s response to the
recommendations, as well as their comments on the responses after the recommendations. Also
included in the report is the EAC response to the draft report (Appendix A-2), dated August 12,
2013, which indicated that the EAC would work with the Board to ensure corrective action.
       We would appreciate being kept informed of the actions taken on our
recommendations as we will track the status of their implementation. Please respond in
writing to the finding and recommendation included in this report by November 13, 2013.
Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation.

       To fulfill our responsibilities under Government Auditing Standards, the Office of
Inspector General:

       • Reviewed McBride, Lock & Associates’ approach and planning of the audit;

       • Evaluated the qualifications and independence of the auditors;

       • Monitored the progress of the audit at key points;

       • Reviewed the audit report, prepared by McBride, Lock & Associates to ensure
         compliance with Government Auditing Standards; and

       • Coordinated issuance of the audit report.

       McBride, Lock & Associates is responsible for the attached auditor’s report and
the conclusions expressed in the report. We do not express any opinion on the
conclusions presented in McBride, Lock & Associates audit report.

      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit reports issued, actions taken to implement our
recommendations, and recommendations that have not been implemented.

       If you have any questions regarding this report, please call me at (202) 566-3125.



Attachment


cc: Director of Grants and Payments
       Performance Audit Report


2008 Election Data Collection Grant Program


      Award Number: 08-EDC-800176


               State of Illinois



    May 27, 2008 through June 30, 2010





               United States


      Election Assistance Commission






                       McBRIDE, LOCK & ASSOCIATES
                                 CERTIFIED PUBLIC ACCOUNTANTS
                                                    KANSAS CITY
                          Performance Audit Report


                 2008 Election Data Collection Grant Program


                       Award Number: 08-EDC-800176


                                State of Illinois



                              TABLE OF CONTENTS


                                                                                           Page

EXECUTIVE SUMMARY                                                                            1

BACKGROUND                                                                                   2

AUDIT OBJECTIVES                                                                             3

SCOPE AND METHODOLOGY                                                                        4

AUDIT RESULTS                                                                                4

APPENDICES:

     Appendix A-1: Response of the Illinois State Board of Elections to the Draft Report
     Appendix A-2: Response of the U.S. Election Assistance Commission
                   to the Draft Report
     Appendix B:    Audit Methodology
     Appendix C:    Schedule of Awards as of June 30, 2010
     Appendix D:    Monetary Impact as of June 30, 2010
                       U.S. Election Assistance Commission


                            Performance Audit Report


                   2008 Election Data Collection Grant Programs


                         Award Number: 08-EDC-800176


                                  State of Illinois



EXECUTIVE SUMMARY

McBride, Lock & Associates was engaged by the United States Election Assistance Commission
(EAC) Office of the Inspector General to conduct a performance audit of award 08-EDC­
800176, Election Data Collection Grant (Grant), to the Illinois State Board of Elections (Board)
from inception on May 27, 2008 through the award conclusion date of June 30, 2010 to
determine whether the Board was in compliance with EAC’s and Federal regulations concerning
award administration and management.

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on the audit objectives.

Based on the audit procedures performed, except for the matters discussed below, we concluded
that the Board generally accounted for and expended the Grant funds in accordance with the
requirements mentioned above for the period from May 27, 2008 through June 30, 2010. The
exceptions are as follows:

   1.		 The Board lacks complete, documented policies with respect to award administration,
        accounting and financial reporting.

   2.		 The Board’s internal control processes were not adequate to prevent or detect the
        payment of invoices lacking adequate approvals and detail of hours and hourly rates as
        outlined in the agreed-upon contract provisions.

We have included in this report as Appendix A-1 the Board of Elections’ written response to the
draft report. Such response has not been subjected to the audit procedures and, accordingly, we
do not provide any form of assurance on the appropriateness of the response or the effectiveness
of the corrective actions described therein.




                                               1


BACKGROUND

In December 2007 Congress authorized the fiscal year 2008 Omnibus Appropriations Act
(Public Law 110-161, Title V), which directed the EAC to award grants of $2 million to each of
five eligible states to improve the collection of precinct level data relating to the November 2008
Federal elections. The act provided for the creation of the Election Data Collection Grant
Program, the purpose of which was to:

   •		 Develop and document a series of administrative and procedural best practices in election
       data collection that can be replicated by other States;

   •		 Improve data collection processes;

   •		 Enhance the capacity of States and their jurisdictions to collect accurate and complete
       election data; and

   •		 Document and describe particular administrative and management data collection


       practices, as well as particular data collection policies and procedures.



The States were to use the Grant funds to implement programs to improve the collection of data
relative to the November 2008 Federal general election and to improve the reporting of election
data at the precinct level. The Grants were awarded in May 2008 and were for a period of
13 months.

The States were to provide their report on the data collected from the November 2008 election to
the EAC by March 2009. In turn, the EAC was required to submit, by June 30, 2009, a report to
Congress on the impact of the Election Data Collection Grant Program on States’ abilities to
effectively collect Federal Election data. The EAC granted the Illinois State Board of Elections a
no-cost extension on the grant beyond June 30, 2009, until June 30, 2010.

The Illinois Secretary of State noted, in its Performance Report issued on June 1, 2009, that the
Office had completed the tasks associated with three of the five project phases. The remaining
two phases involved vendor enhancement services, validation reporting, training, systems
integration functionality and systems documentation. These two pending phases were predicted
to be completed by September 30, 2009, and the Office reported to the EAC that it had
$1,567,189 in unused grant funds to finance these efforts and the unbilled costs associated with
Phase 3. The Office requested and was granted by EAC a one year no-cost extension so they
could complete the remaining Phases 4 and 5. In its Final Performance Report for the period
ended June 30, 2010, the Office reported successful completion of all grant award requirements.
Unused funds of $268,599 were returned to EAC in two payments of $268,369 in August of
2011 and $230 in February of 2012.




                                                2


                                  Data Collection Grant Activity


                        (a)             (b)              (c)               (d)
                     Proposed         As of             As of             As of       (d) - (c) = (e)
   Category           Amount       June 1, 2009     June 30, 2009     Sep. 30, 2010     Difference

Personnel        $      402,500    $       -            $       -     $         -     $         -
Fringes                 113,500            -                    -               -               -
Contractual           1,456,000        430,688              430,688       1,740,078       1,309,390
Other Expenses           28,000          2,123                2,123           2,123             -
Totals           $ 2,000,000       $   432,811          $   432,811   $ 1,742,201     $ 1,309,390



The Office spent $1,309,390 subsequent to June 30, 2009. The expenditures were comprised
primarily of contractual services. The Office reported that the delay in completing the project
beyond the initial September 2009 date was caused by the manner in which the appropriation of
funds was conducted by the State. The Office also reported in its 2009 Progress Report that “all
relevant milestones and critical dates within the project schedule provided in the grant proposal
have been met.” The report noted that some further refinement of certain tasks and import
functions from the County tabulation systems were yet to be handled.


AUDIT OBJECTIVES

The objectives of our performance audit were to identify costs claimed in the Grant’s Financial
Status Reports that are not allocable, allowable, reasonable, and in conformity with EAC award
terms and conditions and applicable Federal grant requirements. The Board is required to follow
the requirements of the Grant program’s legislation and program regulations, Grant award terms
and conditions, Office of Management and Budget (OMB) Circular A-87 (2 CFR 225), Cost
Principles for State, Local, and Indian Tribal Governments, and OMB Circular A-102, Grants
and Cooperative Agreements with State and Local Governments.




                                                  3


SCOPE AND METHODOLOGY

We audited the Grant funds received and disbursed by the Board from May 27, 2008 through
June 30, 2010 as shown in the following table:

                        Award amount                 $   2,000,000

                        Award funds received         $   2,000,000
                        Program income                      10,800
                        Total Available              $   2,010,800

                        Program expenditures         $   1,742,201
                        Funds returned to EAC              268,599

                        Total Disbursed              $   2,010,800

Our audit methodology is set forth in Appendix B.


AUDIT RESULTS

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on the audit objectives.

Based on the audit procedures performed, except for the matters discussed below, we concluded
that the Board accounted for and expended the Grant funds in accordance with the requirements
mentioned above for the period from May 27, 2008 through June 30, 2010. The exceptions to
applicable compliance requirements are described below.


Finding No. 1 – Documentation of Policies and Procedures
The Board lacks complete, documented policies with respect to award administration, accounting
and financial reporting.

Federal regulations, specifically 41 CFR 105-71.120 - Post-Award Requirements/Financial
Administration, Standards for Financial Management Systems, Internal Control, require that:

   (a) A State must expand and account for grant funds in accordance with State laws and
       procedures for expending and accounting for its own funds, and

   (b) Effective control and accountability must be maintained for all grant and subgrant cash,
       real and personal property, and other assets.


                                                4

The State of Illinois Fiscal Control and Internal Auditing Act (FCIAA), Section 3001 further
requires that “All State agencies shall establish and maintain a system, or systems of internal
fiscal and administrative controls, which shall provide assurance that (1) Resources are utilized
efficiently, effectively and in compliance with applicable law.”

A key aspect of maintaining an effective system of internal controls is the documentation of
related policies and procedures to ensure these criteria are current, approved, communicated,
incorporated into training materials, and updated when appropriate.

The Board has not documented or incorporated into policy and procedure manuals certain
important policies and procedures affecting award administration, including federal reporting,
general ledger reconciliations and contract monitoring. The Board relies heavily on written
documentation set forth in State manuals, statutes and other publications. Accordingly, policies
and procedures implemented at the Board level are minimal, overly broad and incomplete. Due
to the few personnel involved in award administration, accounting and financial reporting,
policies and procedures have developed informally over the years.

Documented evidence of contract monitoring was minimal, consisting of emails from a primary
vendor. The absence of a structured methodology to document financial transactions and
approvals may have contributed to the exception noted in our testwork with respect to inadequate
detail provided on contractor invoices.

Incomplete or inadequate documentation of policies and procedures may result in a lack of
awareness and compliance with management’s directives, and could allow noncompliance with
grant terms and conditions to occur and not be detected.

The Board has had minimal experience with federal awards including the processes associated
with federal reporting and the administration of significant contracts. Accordingly, there had
been no specific need for documentation of policies and procedures in these areas. Further, as a
small office much of the training, such as the reconciliation of the State and Board accounting
systems, has occurred through verbal discussion rather than use of written documentation of
policies and procedures.

Recommendation

We recommend that the EAC require the Board to implement procedures to ensure that all
significant accounting, financial management and grant administration policies and procedures
are documented. The documentation should be reviewed and updated on a regular basis, and
procedures should be implemented to ensure that such documentation is available and
communicated to all personnel involved in the administration of Federal awards.

State Board of Elections Response:

   The Board stated that it complies with applicable policies and procedures of the State for
   managing funds from both State and Federal sources, and that documentation exists in Board
   manuals, and State manuals, rules, statutes and guidelines. The Board acknowledged that it
   did not have program-specific policies and procedures for administration of EAC Data

                                               5


   Collection Grant monies and agreed to develop Federal-specific policies and procedures for
   future programs involving the expenditure of Federal funds.

Auditor’s Response:

   We commend the Board for its efforts to document policies and procedures which may
   facilitate or promote compliance with federal, state and internal Board requirements, and for
   its recognition of the usefulness of such guidance for new grantor-funded programs.


Finding No. 2 – Contract Monitoring and Related Internal Control Processes

The Board’s internal control processes were not adequate to prevent or detect the payment of
invoices lacking adequate detail of hours and hourly rates as outlined in the agreed-upon contract
provisions.

Federal regulations, specifically 41 CFR 105-71.120 - Post-Award Requirements/Financial
Administration, Standards for Financial Management Systems, Internal Control, requires that:

   (a) A State must expand and account for grant funds in accordance with State laws and
       procedures for expending and accounting for its own funds, and

   (b) Effective control and accountability must be maintained for all grant and subgrant cash,
       real and personal property, and other assets.

The State of Illinois Fiscal Control and Internal Auditing Act (FCIAA), Section 3001 requires
that “All State agencies shall establish and maintain a system, or systems of internal fiscal and
administrative controls, which shall provide assurance that (1) Resources are utilized efficiently,
effectively and in compliance with applicable law.”

As set forth in OMB Circular A-87, Section C., to be allowable under Federal awards, costs must
be adequately documented. Further, the FCIAA requires the Comptroller to establish guidelines
for the evaluation of State Agencies’ systems of internal control. One component of this
evaluation is the completion of an Internal Control Checklist, which requires State agencies to
certify compliance with control objectives including that “appropriate payment is made only
when satisfactory goods and services are received” and that controls are in place to ensure the
State agency “receives the quantity and quality of goods and services ordered”.

A key aspect of internal controls is ensuring that documented support exists to ensure that costs
charged to Federal awards are commensurate with the value received. Our inspection of 8
invoices representing 87 percent of award expenditures revealed that 6 of the 8 payments lacked
at least one required component of support in the form of detail as to hours, rates and fees,
project manager’s signature, approval of payment authorization document, verification of
account coding, or documentation of contract monitoring.




                                                6


Three primary contractors were retained for the administration of the Grant-funded project.
Payments to these contractors amounted to $1,515,484, or approximately 87 percent of total
award expenditures as referenced above. Audit procedures revealed that contractor billings were
not sufficiently monitored to ensure compliance with contract terms and conditions. Deficiencies
were noted in the areas of approvals, sufficiency of detail for travel, time and materials billings,
and documented monitoring of contract progress and deliverables. Specifically, the following
exceptions were noted:
   1.		 One contractor’s billings amounting to $118,400, or 7 percent of total award
        expenditures, were paid without detail as to hours, rates or the resulting fee calculation.
        These costs are questioned due to lack of documentation to support the amount billed.
        This same contractor’s billings were processed without the existence of an approved AIS­
        13 document which should serve to authorize payment by the State Comptroller.

   2.		 Contractor billings were processed without documented approval for payment or proper
        account coding for two vendors, including the largest contractor representing 71% of
        total DCG program expenditures.

   3.		 There was limited evidence of monitoring of the largest contractor representing 71% of
        total DCG program expenditures.

   4.		 Travel incurred by contractors was not always supported with detail travel vouchers.
        Specifically, $1,195 of travel expenses were not supported by receipts. These costs are
        questioned due to lack of documentation to support the amount billed.

It should be noted that compensation to the above contractors did not exceed the contractual
amounts, and the Board’s project manager asserted that the contractors met all deliverables
outlined in the statement of work. However, the absence of a thorough review of contractor
invoices may allow improper or unsupported costs to be charged to Federal awards.

The above-described deficiencies reflect a lack of sufficient emphasis on review processes to
ensure all invoices were thoroughly evaluated for proper detail, approvals and account coding.

Recommendation

We recommend that the EAC address and resolve the following recommendation that the Illinois
State Board of Elections:
   a.		 Implement procedures to ensure adherence to Federal and State-mandated internal control
        processes when administering future Federal awards, including specifically the
        documentation of monitoring processes with respect to contractor billings and
        deliverables, and the review and approval of all invoices for compliance with agreed
        upon contractual provisions and proper account codes, prior to submittal for payment.

   b.		 Resolve the questioned costs amounting to $119,595 cited above.




                                                 7

State Board of Elections’ Response:

   The Board concurred that some invoices in question were not submitted in accordance with
   contractual provisions and that documentation of certain monitoring activities was
   inadequate. However, the Board notes that the invoices identified in the finding were billed
   and evaluated by deliverable milestone, and that the satisfactory completion of these
   milestones was verified by a third party review vendor and by in-house staff prior to
   submittal for payment. The Board asserts that the milestone-based process ensures the
   achievement of contact objectives without the risk of contact overruns. Accordingly the
   Board does not consider the referenced costs to be questionable. The Board also stated that,
   while the travel voucher expenses discussed in the finding above were not supported by
   travel vouchers, these expenses were properly verified prior to payment. The Board agreed
   to review and enhance internal procedures to ensure that future vendor billings are submitted
   and evaluated in accordance with contractual provision and that documentation of such
   procedures is maintained.

Auditor’s Response:

   The Board has concluded that the vendor fulfilled the terms of its contract with respect to
   completion of project milestones. We encourage the Board to request the vendor to also
   comply with the contractual provisions regarding accounting for time expended at agreed-
   upon hourly rates to support the associated billings. This information will ensure that any
   cost savings which may have been achieved through reductions in actual labor hours from
   those initially planned are shared with the State and are returned to EAC or made available
   for future HAVA-related projects. The Board should also propose a satisfactory method to
   justify the $1,195 of travel expenses that were not supported by receipts.


We provided a draft of our report to the appropriate individuals of the Illinois State Board of
Elections. We considered any comments received prior to finalizing this report.

The Board responded on August 28, 2013 and generally agreed with the report’s findings and
recommendations although they assert that all award costs were appropriately incurred and
commensurate with the value received. The EAC responded on August 12, 2013 and stated that
they would work with the Board to resolve the issues and ensure appropriate corrective action.
The Board’s complete response is included as Appendix A-1 and the EAC’s complete response
as Appendix A-2.

McBride, Lock & Associates performed the related audit procedures between January 28, 2013
and June 7, 2013.

(Original Signed by McBride, Lock & Associates)

McBride, Lock & Associates
June 7, 2013




                                              8

                                    STATE BOARD OF ELECTIONS


                                          STATE OF ILLINOIS 


2329 S. MacArthur Blvd                                                                     BOARD MEMBERS
Springfield, Illinois 62704-4503                                                     Jesse R. Smart, Chairman
217/782-4141 TTY: 217/782-1518                                               Charles W. Scholz, Vice Chairman
Fax: 217/782-5959                                                                               Harold D. Byers
                                                                                                Betty J. Coffrin
James R. Thompson Center                                                                       Ernest L. Gowen
100 W. Randolph St, Ste 14-100                                                           William M. McGuffage
Chicago, Illinois 60601-3232                                                               Bryan A. Schneider
312/814-6440 TTY: 312/814-6431                                                            Casandra B. Watson
Fax: 312/814-6485
                                            EXECUTIVE DIRECTOR
                                             Rupert T. Borgsmiller


                                                   August 28, 2013


        Mr. Curtis Crider, Inspector General
        U.S. Election Assistance Commission
        1201 New York Ave. NW – Suite 300
        Washington, DC 20005


        Mr. Crider,


        Please find below the State Board of Elections’ (SBE) follow up response to the Revised
        Draft Audit Report dated August 27, 2013, for the performance audit conducted of award 08-
        EDC-800176, Election Data Collection Grant:

        Finding No. 1 – Documentation of Policies and Procedures

            SBE Response – Concur: The Board maintains its original response per its 6/24/13 &
            8/5/13 findings letters, and will develop additional Federal-specific policies and procedures
            for future programs involving expenditures of Federal funds.

        Finding No. 2 - Contract Monitoring and Related Internal Control Processes

            SBE Response – Concur, with exception to the determination of ‘questionable
            cost’: Although the Board feels that sufficient oversight and monitoring activities were
            performed over contractual vendors assigned to the Data Collection Grant project,
            adequate documentation to verify those activities to auditors and other outside oversight
            entities was not properly maintained at the Agency level. In addition, the agency concurs
            that some processing approvals were not affixed in accordance with Federal and Agency
            operational rules, and that contractual billings from the project vendor referenced in the
            finding (VOTEC) were not documented and evaluated in accordance with originally
            stated contractual provisions.

            However, the SBE continues to assert in the VOTEC case that as the Agency became
            more familiar with the Federal goals and operational needs of the Data Collection Grant
            project, it became apparent that a milestone-based process was a better method to
                                               www.elections.il.gov
ensure that the best outcome was received on contract deliverables. SBE also believes
that this evaluation process prevented potential additional expense of Federal funds
relative to this contract, as contract payments were based primarily on milestones
achieved and eliminated the potential cost for hours worked in excess of the original
contract estimate. Consequently, the Board continues to believe that the VOTEC costs
should not be considered ‘questionable’, as full contract value was received, all
deliverables were met that ensured the success of the Data Collection Grant project, and
unnecessary costs in excess of that required to successfully complete project
deliverables were prevented. The Board asks that the EAC take these facts into account
when performing their evaluation of ‘questionable costs’ related to the Illinois program.

In reference to the travel voucher documentation portion of the finding, although a
documented travel voucher was not received, SBE did verify and validate the travel
noted on the vendor invoice prior to vendor payment. Nonetheless, SBE will continue
that future contractual billings are properly documented to verify the appropriateness of
all vendor costs submitted for reimbursement.

If you have any questions about our revised response, please feel free to contact either
Mike Roate or Jeremy Kirk of the Administrative Services Division at (217) 782-1525.

                                               Sincerely,




                                               Rupert T. Borgsmiller
                                               Executive Director



Cc: 	 Mike Roate
     Jeremy Kirk




                                     www.elections.il.gov





                                                                                     Appendix B

                               AUDIT METHODOLOGY


Our audit methodology included:

   •		 Assessing audit risk and significance within the context of the audit objectives.
   •		 Obtaining an understanding of internal control that is significant to the administration of
       the Grant funds and of relevant information systems controls as applicable.
   •		 Identifying sources of evidence and the amount and type of evidence required.
   •		 Determining whether other auditors have conducted, or are conducting, audits of the
       program that could be relevant to the audit objectives.

To implement our audit methodology, below are some of the audit procedures we performed.

    •		 Interviewed appropriate Board employees about the organization and operations of the
        Grant program.
    •		 Reviewed prior state-wide audits, biennial compliance audits and a performance audit
        related to the State’s financial management systems and the Grant program for the period
        under review.
    •		 Reviewed policies, procedures and regulations for the Board management and
        accounting systems as they relate to the administration of the Grant program.
    •		 Tested major purchases, in the form of contractual services, and the supporting
        documentation.
    •		 Tested randomly sampled payments made with Grant funds.
    •		 Evaluated compliance with the requirements for accumulating financial information
        reported to the Commission on the financial status reports and progress reports, Form
        SF-269 and SF-PPR, accounting for property, and purchasing Grant related goods and
        services.




                                               12


                                                                                   Appendix C

               SCHEDULE OF AWARDS AS OF JUNE 30, 2010


                                                                    Budget         Actual
Project Staffing Costs:
 Project Leader 
                                               $ 262,500      $            ­
 Information Technology Specialist 
                               75,000                   ­
 Election Information Specialist 
                                 65,000                   ­
 Fringe Benefits 
                                                113,500                   ­
    Total Project Staffing Costs                                $ 516,000      $            ­

Contractual Vendor Implementation Costs:
 System Design, Development, Testing, Deployment & Stabilization $ 1,036,000   $ 1,239,963
 Modification Contracts with Voter Tabulation Systems Vendors        420,000       500,115
   Total Contractual Vendor Implementation Costs                 $ 1,456,000   $ 1,740,078

Project Support Costs:
 Travel 
                                                       $     24,000   $      2,105

 Miscellaneous 
                                                       4,000             18

  Total Project Support Costs 
                                 $     28,000   $      2,123


Total Costs                                                     $ 2,000,000    $ 1,742,201




                                            13


                                                                           Appendix D

     MONETARY IMPACT AS OF JUNE 30, 2010

                                                         Additional
                                        Questioned       Funds for
           Description                    Costs          Program
Inadequate Contractor Billings          $ 118,400    $                ­

Unsupported Travel Charges                  1,195                     ­

Total                                   $ 119,595    $                ­





                                 14


                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1201 New York Ave. NW - Suite 300
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: 	U.S. Election Assistance Commission
Waste and Abuse                 Office of Inspector General
Involving the U.S.              1201 New York Ave. NW - Suite 300
Election Assistance             Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
